Emission Factor Development
                EPA Office of Inspector GeneralEmission
                Factor Development


                                           TABLE OF CONTENTS

 •   EXECUTIVE SUMMARY
 •   CHAPTERS
       o Chapter 1-
             INTRODUCTION
             Purpose
             Background
             Scope and Methodology
             Prior Audit Coverage
       o Chapter 2-
             EMISSION FACTOR DEVELOPMENT HAS NOT MET AIR POLLUTION
                CONTROL PROGRAMS' DEMANDS FOR NEW AND REVISED EMISSION
                FACTORS
             New and Or Revised Emission Factors Needed for Several Sources of Air Pollution
             Existing Funding Appears to Be Inadequate for Factor Development
             Impact of Emission Factors on Agency Air Programs
             Conclusion
             Recommendation
             Agency Comments and OIG Evaluation
       o Chapter 3-
             LIMITED STATE IMPLEMENTATION OF THE EMISSION FACTOR INITIATIVE
             Background
             Results of Regional Reviews
             Conclusion
             Recommendations
             Agency Comments and OIG Evaluation
       o Chapter 4-
             INDUSTRY PARTNERSHIPS PRESENT RISKS FROM CONFLICTS OF INTEREST
             EPA'S Efforts to Develop Emission Factors Through Industry Partnerships
             Oversight Over the Industry Partnership Process
             Conclusion
             Recommendations
             Agency Comments and OIG Evaluation
       o APPENDICES
             APPENDIX I - ACRONYMS AND ABBREVIATIONS
             APPENDIX II - UNAVAILABLE AP-42, VOLUME I SECTIONS
             APPENDIX III - ADOPT-A-FACTOR IMPLEMENTATION
             APPENDIX IV - INDUSTRY PARTNERSHIPS
             APPENDIX V - DISTRIBUTION
